                                                          IG-00-015




AUDIT
                       SPACE FLIGHT OPERATIONS CONTRACT PHASE II -
REPORT                            COST-BENEFIT ANALYSIS

                                      March 14, 2000




                       OFFICE OF INSPECTOR GENERAL
National Aeronautics
and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

   Assistant Inspector General for Auditing
   Code W
   NASA Headquarters
   Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-
9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html




Acronyms

SFOC                  Space Flight Operations Contract
USA                   United Space Alliance
W                                                                                  March 14, 2000




TO:          A/Administrator

FROM:        W/Inspector General

SUBJECT: INFORMATION: Space Flight Operations Contract Phase II -
         Cost-Benefit Analysis
         Report Number IG-00-015


The NASA Office of Inspector General has completed an audit of the Space Flight Operations
Contract (SFOC ) Phase II - Cost Benefit Analysis. We found that NASA had not performed
a cost-benefit analysis prior to consolidation of Space Shuttle prime contracts into one prime
contract with the United Space Alliance (USA). Therefore, the Agency is not relying on a
complete analysis and documentation of estimated benefits for the consolidation. In addition,
the Agency does not have a good baseline, which would have been established during a cost-
benefit analysis, to evaluate the outcome of the consolidation. As a result, NASA cannot be
certain that further consolidation of about $10 billion in Space Shuttle contracts will result in net
savings to the Government.

Background

The USA became the prime contractor responsible for all Shuttle missions in 1996. As the
prime contractor, USA assumed responsibility for ensuring all Shuttle missions manifested by
NASA are successfully accomplished. The contract has two phases within which NASA
consolidates prior prime contracts over several years as USA assumes more responsibility. The
contract is currently in Phase II; however, the most significant portion of Phase II has not been
completed, specifically the portion related to the Space Shuttle main engines, external tanks, and
reusable solid rocket motors.

Recommendations

We recommended that the Associate Administrator for the Office of Space Flight (1) perform a
cost-benefit analysis before further consolidation of Space Shuttle contracts into the SFOC and
(2) evaluate at least annually whether estimated benefits are realized.
                                                                                                 2
Management Response and OIG Evaluation

Management concurred with Recommendation 1 and concurred with the intent of
Recommendation 2. In response to Recommendation 1, the Associate Administrator for the
Office of Space Flight will ensure that an appropriate cost-benefit analysis is applied in all
phases of the SFOC management cycle. NASA will implement a structured cost-benefit
analysis into the processes used to determine the overall impacts and effects of consolidating
any additional contracts into SFOC. In response to Recommendation 2, NASA will increase
the focus of the continuous Program budget assessments of realized cost performance under
SFOC as compared to previous performance under individual contracts.

Management comments were responsive to the recommended corrective actions. The
recommendations are resolved but will remain undispositioned until agreed-to corrective actions
are completed. We are monitoring the recommendations for reporting purposes pending
implementation of agreed-to corrective actions.

[Original signed by]


Roberta L. Gross

Enclosure
Final Report on Audit of Space Flight Operations Contract Phase II -
 Cost-Benefit Analysis
                    FINAL REPORT
AUDIT OF SPACE FLIGHT OPERATIONS CONTRACT PHASE II -
                COST BENEFIT ANALYSIS
W                                                                       March 14, 2000


TO:              M/Associate Administrator for Office of Space Flight

FROM:            Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of Space Flight Operations Contract Phase II -
                 Cost-Benefit Analysis
                 Assignment Number A9906400
                 Report Number IG-00-015


The subject final report is provided for your use and comment. Our evaluation of your response
is incorporated into the body of the report. Management comments were responsive to the
recommended corrective actions. However, management did not specify an estimated
completion date for the corrective action on Recommendation 2. We request that information
by April 13, 2000, in response to the final report. Also, please notify us when actions have
been completed on the recommendations, including the extent of testing performed to ensure
corrective actions are effective. The recommendations will remain open for reporting purposes.

If you have questions concerning the report, please contact Mr. Dennis E. Coldren, Program
Director, Human Exploration and Development of Space Audits, at (281) 483-4773, or Mr.
Dennis Clay, Auditor-in-Charge, at (281) 483-0482. We appreciate the courtesies extended
to the audit staff. The final report distribution is in Appendix E.

[Original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
AA/Director, Lyndon B. Johnson Space Center
                                                                        2
bcc:
AIGA, IG, Reading Chrons
W/Program Director, Human Exploration and Development of Space Audits
W/Auditor-in-Charge
JSC/BD5/Audit Liaison Representative
                             NASA Office of Inspector General
IG-00-015                                                                              March 14, 2000
 A9906400
                     Space Flight Operations Contract Phase II -
                                Cost-Benefit Analysis

Introduction

The NASA Office of Inspector General has performed an audit to evaluate management of
Phase II of the Space Flight Operations Contract (SFOC). Specifically, our objectives were to
determine whether contract requirements were properly determined, fair and reasonable pricing
was obtained, and cost savings and other SFOC goals have been achieved. We identified a
condition regarding a cost-benefit analysis that warrants timely action by NASA management.
We will issue a report on the other objectives later. Details on our objectives, scope, and
methodology are in Appendix A.

NASA began consolidating Space Shuttle contracts in 1996 under the SFOC with United Space
Alliance (USA).1 (See Appendix B for overall contract details.) Under the USA contract,
NASA identified 12 contracts to be combined during Phase I and 15 contracts to be combined
during Phase II as NASA gains confidence in USA's abilities to assume more responsibility.

Results in Brief

NASA has not performed a cost-benefit analysis to ensure that consolidation of Space Shuttle
contracts is in the best interest of the Government. Instead, NASA has proceeded with the
consolidation based on an assumption that consolidation will be cost-effective and in the best
interest of the Government. Without a cost-benefit analysis, NASA cannot be certain that
further consolidation of about $10 billion in Space Shuttle contracts will result in a net savings to
the Government.

Background

In September 1996, NASA entered into a contract with USA as the prime contractor for Space
Shuttle Program2 and International Space Station Program3 activities to ensure that all missions
manifested by NASA are successfully accomplished in accordance with the applicable flight
1
  The contract, NAS 9-20000, is a cost plus, award fee, incentive fee, and performance fee contract (original
cost was $6.339 billion and fee was $.610 billion).
2
  NASA's plan for the SFOC was designed to include a subset of the Shuttle Program contracts and activities
specifically focused on the operational functions of the Shuttle Program. Development activities were not
targeted for consolidation and neither were science activities or institutional activities required to support the
Shuttle Program.
3
  The Space Station Program activities targeted for SFOC were very limited and focused primarily on the
mission operations functions integrally associated with flight controller support, mission planning, and
training.
definition and requirements, schedule, and implementation plan. The original contract value was
$6.949 billion4 with a 6-year period of performance, October 1996 through September 2002.
The contract contained two options to extend the period of performance for 2 years each that, if
exercised, would extend the contract another 4 years through September 2006.

The contract has two phases within which NASA is consolidating prior prime contracts over
several years as the USA demonstrates the ability to assume more responsibility. During Phase
I, which began in October 1996, the USA assumed overall responsibility for the fleet of orbiter
vehicles. During Phase II, which began in September 1997, NASA has transitioned more prime
contracts under SFOC for work either to be performed by USA or to subcontract with USA.
Table 1 shows the Phase II effort that NASA and USA have negotiated.

                               Table 1. Phase II Consolidations
                                           (Millions)
                                              Modification    Modification
                         Description              Value           Date
                                         *
                 Kennedy Base Operations           $ 9          Sept. 1997
                 Waste Collection System              5         Sept. 1997
                 Flight Software                    140         June 1998
                 Flight Equipment                   183         June 1998
                 Solid Rocket Boosters              596         June 1998
                             Total                 $933

*NASA added elements of the Kennedy Space Center Base Operations contract to the SFOC.


However, the most significant portion of Phase II has not been completed. Table 2 shows the
contracts remaining to be consolidated.

                            Table 2. Future Contract Consolidations
                                          (Millions)
                                                           Planned
                                            Contract   Consolidation
                           Description       Value          Date
                         External Tanks      $4,589       July 2000
                         Space Shuttle
                         Main Engines         1,481       July 2001
                         Reusable Solid
                         Rocket Motors        3,880       July 2001
                               Total         $9,950




4
 The contract value was $8.607 billion as of October 1, 1999 (per contract modification number 380, cost was
$7.915 billion and fee was $.692 billion).
                                                       2
Cost-Benefit Analysis

Finding. NASA did not perform a cost-benefit analysis prior to consolidation of Space Shuttle
contracts under the SFOC. The Associate Administrator of the NASA Office of Space Flight
directed the consolidation of Space Shuttle contracts in 1995 based on recommendations of an
independent review team commissioned by the NASA Administrator. Without a cost-benefit
analysis and periodic evaluation, NASA cannot be certain it will achieve net savings from further
consolidation of Space Shuttle contracts valued at about $10 billion, specifically, for Space
Shuttle main engines, external tanks, and reusable solid rocket motors.

Requirement to Perform a Cost-Benefit Analysis

NASA Deputy Administrator. In a March 1997 memorandum, the Acting NASA Deputy
Administrator directed all NASA personnel to use a cost-benefit analysis in the process of
considering issues related to consolidation, downsizing, outsourcing, and research or program
elimination.5 The memorandum stated that, in order for NASA to meet its goals, the Agency
must make decisions based on the best information available. Independent and up-front cost-
benefit analyses should be a key element in NASA's decision-making process. Further, all
NASA offices are required by the memorandum to perform the analyses in a reasonable and
timely manner. The analyses should be sufficient to provide NASA management with the
information it needs to make the best decisions as well as withstand the scrutiny of others.

Office of Management and Budget Circular A-94. Office of Management and Budget
Circular A-94, "Guidelines and Discount Rates for Benefit-Cost Analysis of Federal Programs,"
October 29, 1992, provides general guidance for conducting benefit-cost and cost-effectiveness
analyses. Circular A-94 applies to all agencies of the Executive Branch of the Federal
Government and is intended to promote efficient resource allocation through well-informed
decision making by the Federal Government. Circular A-94 recommends verification as an
element of an analysis (see Appendix C for details). Periodic verification is necessary to
determine whether anticipated benefits and cost savings have been realized.

NASA's Basis for Consolidation

Kraft Review. In November 1994, the NASA Administrator commissioned an independent
review team to evaluate the Space Shuttle Program. The team was chartered to appraise the
current set of processes used in performing Shuttle operations at the Johnson Space Center,
Kennedy Space Center, Marshall Space Center, and Stennis Space Center and to recommend
alternative operational concepts that could significantly reduce operating costs. The team was
asked to develop an approach that would aid in the transition of Agency functions to any
proposed new organizational and/or management structures. The review, known as the Kraft
review,6 concluded in a February 1995 report that the Space Shuttle Program and its elements
5
  The Deputy Administrator addressed the memorandum to Officials-in-Charge of Headquarters Offices;
Directors, NASA field installations; and the Director, Jet Propulsion Laboratory.
6
  Dr. Christopher Kraft, former director of the Johnson Space Center, was Team Chairman.
                                                    3
should be consolidated and that NASA involvement and oversight should be reduced. The
Kraft review did not perform a cost-benefit analysis to support its conclusion.

Associate Administrator Briefing to Industry. In August 1995, the Associate Administrator,
Office of Space Flight, and the Program Director, Space Shuttle Program, presented a Space
Shuttle Restructuring Industry Briefing and issued a synopsis to potential contractors. In the
briefing, NASA outlined the guidelines for consolidation of contracted routine Space Shuttle
operations and started the process for the procurement.

Joint Venture. In 1995, Rockwell International Corporation and Lockheed Martin
Corporation held 69 percent of the dollar value of Shuttle-related prime contracts. In response
to NASA's desire to competitively consolidate the prime Shuttle contracts, the two corporations
formed USA, a joint venture, in order to obtain the contract for Shuttle operations. The joint
venture ensured that NASA would have to negotiate with USA in order to avoid a more difficult
transition to a single prime contractor.

Justification for Other than Full and Open Competition. In November 1995, the NASA
Administrator submitted to Congress a justification for other than full and open competition to
negotiate a single prime contract with the USA to become the new Shuttle Flight Operations
Contractor and to assume responsibility for Space Shuttle operations. The Administrator stated
that awarding a single prime contract for Space Shuttle operations should reduce Shuttle
program costs in two ways. First, NASA would provide incentives to eliminate unnecessary or
duplicative work. Second, NASA would no longer be heavily involved in the management of
day-to-day Shuttle operations; therefore, fewer civil servants would be required to manage the
program.

Budget and Civil Servant Reductions

The Space Shuttle Program Business Management Office provided budget data to support its
assertion that there were savings associated with the SFOC. The Space Shuttle Program's
annual budget has declined before and after the SFOC began in fiscal year 1997. Also, the
associated civil servant workforce on the Space Shuttle Program has declined during the same
timeframe. Table 3 shows details on the reductions.

                    Table 3. Space Shuttle Program Reductions
     Fiscal Year                     1995     1996  1997     1998            1999
     Budget Reductions (millions)     $222     $348   $30     $204             $83
     Civil Servant Reductions          365      363   401      241             176

However, these reductions are for the total Space Shuttle Program. The Business Management
Office did not conclusively show the amount of reductions attributed to the SFOC alone, as
opposed to the annual reductions for the total Shuttle Program. While the reductions show a
downward trend for the Shuttle Program, reduced spending for the total Program does not imply
SFOC savings and, therefore, cannot justify the consolidation based on cost savings.
                                                4
Cost-Benefit Analysis Provides a Needed Cost Baseline

A cost-benefit analysis establishes the basis for an agency decision and provides a baseline
that can be used for future evaluation of that decision. The rationale for the program should
be clearly stated in the analysis and all assumptions should be explicit. For example, the
USA contract adds additional cost and fee to its subcontract cost before billing NASA.
USA must manage those subcontracts and is entitled to cost and fee associated with that
task. However, for there to be overall cost savings as a result of the SFOC, there must be
cost reductions elsewhere to offset the additional USA cost and fee. These cost reductions
may be due to reductions in civil servants, reductions in subcontractor personnel, or
reductions in subcontract content. The analysis and resulting baseline provides the basis for
future evaluation to determine whether anticipated benefits and costs have been realized.

Cost-Benefit Analysis Should Address Critical Skills

The proper civil servant workforce and skill mix is a challenge as NASA adjusts to budgetary
and personnel constraints. Therefore, NASA should have a good business reason for the
consolidation and downsizing of its workforce, which should be based on a cost-benefit analysis.
The analysis should identify the critical skills in its civil servant workforce and the associated cost
to provide adequate management of the Shuttle Program and contractors as NASA transfers
more responsibility for Shuttle operations to a single prime contractor.

Analysis and Periodic Evaluation is Needed

The Agency should comply with the Acting Deputy Administrator's direction for performing a
cost-benefit analysis before additional consolidation during Phase II of the SFOC. As a sound
business practice, NASA should have performed a cost-benefit analysis before starting
consolidation of the Space Shuttle operations contracts in 1996. Although NASA did not
specifically require a cost-benefit analysis when the SFOC consolidation began, the Agency
subsequently required it. Since consolidation is not complete, a cost-benefit analysis and
periodic evaluation would be beneficial and could provide NASA reasonable assurance that
further consolidation is the best decision for the Government.

Recommendations, Management's Response, and Evaluation of
Response

The Associate Administrator for Office of Space Flight should:

1. Perform a cost-benefit analysis before further consolidation of Space Shuttle
   contracts into the SFOC. The analysis should include the cost and fee received by
   the USA for the administration of its subcontracts and any reductions in civil
   servants, subcontractor personnel, or work content.

                                                    5
2. Evaluate at least annually whether estimated benefits are realized.

Management's Response. Concur with Recommendation 1, and concur with the intent of
Recommendation 2. In response to Recommendation 1, the Associate Administrator for the
Office of Space Flight will take action to ensure that an appropriate cost-benefit analysis is
applied in all phases of the SFOC management cycle. NASA will implement a structured cost-
benefit analysis into the processes used to determine the overall effects of consolidating
additional contracts into SFOC. In response to Recommendation 2, NASA will increase the
focus of the continuous Program budget assessments of realized cost performance under SFOC
as compared to previous performance under individual contracts. The complete text of
management's comments is in Appendix D.

Evaluation of Response. The actions planned by management are responsive to the
recommendations. In a separate correspondence, management provided an estimated
completion date of June 16, 2000, for corrective action on Recommendation 1, but did not
specify an estimated completion date for the corrective action on Recommendation 2. We
request that information in response to the final report. The recommendations are resolved but
will remain undispositioned until agreed-to corrective actions are completed.




                                                6
               Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to evaluate management of the SFOC Phase II. Specifically, the
objectives were to determine whether contract requirements were properly determined, fair and
reasonable pricing was obtained, and cost savings and other SFOC goals have been achieved.

This report identifies a condition regarding a cost-benefit analysis that warrants timely action by
NASA management. We will issue a report on the other objectives later.

Scope and Methodology

Our audit included a review of the rationale and plan for consolidation. We reviewed budget
and spending data for fiscal years 1994 through 1999 provided by the Shuttle Program Office.
We also reviewed contract files for the completed Phase II negotiations. We interviewed
Shuttle Program personnel to understand the history of the procurement and the possible future
of the SFOC. We did not assess the reliability of computer-processed data, because we did
not rely on computer-processed data to achieve our objectives.

Management Controls Reviewed

We reviewed management controls relative to a cost-benefit analysis as described in the NASA
Deputy Administrator's March 1997 memorandum, 7 and Office of Management and Budget
Circular A-94, "Guidelines and Discount Rates for Benefit-Cost Analysis of Federal Programs,"
October 29, 1992.8

We determined that controls needed to be strengthened to ensure that NASA performs cost-
benefit analysis (see the Finding).

Audit Field Work

We performed the audit field work from August 1999 through January 2000. We conducted
the audit in accordance with generally accepted government auditing standards.




7
  The memorandum directed all NASA personnel to use a cost-benefit analysis in the process of considering
issues related to consolidation, downsizing, outsourcing, and research or program elimination.
8
  The Circular provides general guidance for conducting cost-benefit and cost-effectiveness analyses.

                                                    7
                Appendix B. Space Flight Operations Contract

Brief Description of the Statement of Work. United Space Alliance (USA) has overall
responsibility as the prime contractor to include all Space Shuttle Program and International
Space Station Program activities defined in the contract. The work shall be performed so that
all missions manifested by NASA are successfully accomplished in accordance with the NASA
Space Transportation System 07700, Volume III, Space Shuttle Flight Definition and
Requirements Directive and NASA Space Transportation System 08178, Space Shuttle
Program Schedules for:

    •   overall flight definition and planning guidelines,
    •   near-term flight assignments, characteristics, and configuration,
    •   flight preparation configuration freeze point definitions,
    •   follow-on flight rate requirements by fiscal year,
    •   required capability enhancements in support of flight missions, and
    •   orbiter maintenance and down period schedule.

USA shall perform all work during the contract period necessary and appropriate to support
scheduled missions pursuant to the mission profile. The Space Shuttle vehicle elements for
which the USA has overall responsibility consist of the fleet of orbiter vehicles; solid rocket
boosters and reusable solid rocket motors; external tanks; Space Shuttle main engines; flight
crew equipment; and ground support systems, flight software, and integration of payloads
manifested by NASA.

Date Awarded and Price. The SFOC contract NAS 9-20000 was awarded September 26,
1996, for $6.949 billion. The contract value was $8.607 billion as of October 1, 1999 (per
contract modification number 380).

Contract Type. The contract is a cost plus, award fee, incentive fee, and performance fee
contract.

Completion Date. The basic contract is a 6-year contract with a period-of-performance from
October 1996 through September 2002. The contract has two options to extend the period-
of-performance for 2 years each that, if exercised, would extend the contract another 4 years
through September 2006.

Contractor. The contractor is United Space Alliance, a joint venture between Boeing and
Lockheed Martin.

Primary Locations of Performance. The Johnson Space Center and the Kennedy Space
Center are the primary locations of performance on the contract.



                                                8
Costs Incurred to Date. NASA has disbursed $4.074 billion as of October 6, 1999, on the
contract.




                                           9
                                                                                             Appendix B

Cost And Schedule Performance. The USA has declared $105 million of cost underruns.9

Other Performance Information. The USA award fee scores have ranged from 81 to 86,
out of a possible score of 100.




9
 This underrun represents an increase of $29 million compared to the $76 million underrun referenced in the
draft of this report.

                                                    10
Appendix C. Elements of Cost-Benefit or Cost-Effectiveness Analysis

The Office of Management and Budget Circular A-94, "Guidelines and Discount Rates for
Benefit-Cost Analysis of Federal Programs," October 29, 1992, provides the following
guidance on the elements of a cost-benefit analysis.

               1. Policy Rationale. The rationale for the Government program being
                  examined should be clearly stated in the analysis. Programs may be
                  justified on efficiency grounds where they address market failure,
                  such as public goods and externalities. They may also be justified
                  where they improve the efficiency of the Government's internal
                  operations, such as cost-saving investments.

               2. Explicit Assumptions. Analyses should be explicit about the
                  underlying assumptions used to arrive at estimates of future benefits
                  and costs. In the case of public health programs, for example, it may
                  be necessary to make assumptions about the number of future
                  beneficiaries, the intensity of service, and the rate of increase in
                  medical prices. The analysis should include a statement of the
                  assumptions, the rationale behind them, and a review of their
                  strengths and weaknesses. Key data and results, such as year-by-
                  year estimates of benefits and costs, should be reported to promote
                  independent analysis and review.

               3. Evaluation of Alternatives.      Analyses should also consider
                  alternative means of achieving program objectives by examining
                  different program scales, different methods of provision, and
                  different degrees of government involvement. For example, in
                  evaluating a decision to acquire a capital asset, the analysis should
                  generally consider: (i) doing nothing; (ii) direct purchase;
                  (iii) upgrading, renovating, sharing, or converting existing
                  government property; or (iv) leasing or contracting for services.

               4. Verification.     Retrospective studies to determine whether
                  anticipated benefits and costs have been realized are potentially
                  valuable. Such studies can be used to determine necessary
                  corrections in existing programs, and to improve future estimates of
                  benefits and costs in these programs or related ones.




                                                 11
Appendix D. Management's Response




               12
Appendix D




             13
     Appendix D




14
Appendix D




             15
                        Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Director, Lyndon B. Johnson Space Center
Director, Marshall Space Flight Center
Director, John F. Kennedy Space Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
   Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
   of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
   Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                            16
Appendix E

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             17
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Audit of Space Flight Operations Contract Phase II - Cost-Benefit Analysis

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically
     organized.                                          5       4        3         2         1      N/A
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit
     objectives, scope, and methodology.                 5       4        3         2         1      N/A
4.   The report contained sufficient information to
     support the finding(s) in a balanced and            5       4        3         2         1      N/A
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes:                                             No:
Name:
Telephone:


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Dennis Coldren, Program Director, Human Exploration and Development of Space Audits

Dennis Clay, Auditor-in-Charge

Nancy Cipolla, Report Process Manager

June Glisan, Program Assistant
